<html>
<title> - [H.A.S.C. No. 114-79] NATIONAL ACADEMIES STUDY ON PEER REVIEW AND DESIGN COMPETITION IN THE NNSA NATIONAL SECURITY LABORATORIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 114-79]

                    NATIONAL ACADEMIES STUDY ON PEER

                    REVIEW AND DESIGN COMPETITION IN

                       THE NNSA NATIONAL SECURITY

                              LABORATORIES

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 12, 2016
                            

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 





                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 98-888                    WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 





                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Dahlburg, Dr. Jill P., Co-Chair, Committee on Peer Review and 
  Design Competition Related to Nuclear Weapons, National 
  Academies of Sciences..........................................     4
Peercy, Dr. Paul S., Co-Chair, Committee on Peer Review and 
  Design Competition Related to Nuclear Weapons, National 
  Academies of Sciences..........................................     3

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim.............................................    21
    Peercy, Dr. Paul S., joint with Dr. Jill P. Dahlburg.........    22
    Rogers, Hon. Mike............................................    19

Documents Submitted for the Record:

    Comments of Richard L. Garwin................................    37
    Comments of Roy Schwitters...................................    41
    Summary from National Academies report ``Peer Review and 
      Design Competition in the NNSA National Security 
      Laboratories''.............................................    45

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    54
    Mr. Franks...................................................    56
    Mr. Rogers...................................................    53
    
 NATIONAL ACADEMIES STUDY ON PEER REVIEW AND DESIGN COMPETITION IN THE 
                   NNSA NATIONAL SECURITY LABORATORIES



House of Representatives,

        Committee on Armed SerWashington, DC, Tuesday, January 12, 2016.
The subcommittee met, pursuant to call, at 3:31 p.m., in room 
    2118, Rayburn House Office Building, Hon. Mike Rogers 
    (chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM ALABAMA, 
CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

Mr. Rogers. Good afternoon, the subcommittee will come to 
    order. I want to welcome our witnesses, who are co-chairs 
    of the National Academies of Science panel that conducted 
    a study on these issues. Today's hearing is on Peer Review 
    and Design Competition in the NNSA [National Nuclear 
    Security Administration] National Security Laboratories.
This committee launched this study a few years ago because it 
    wanted an objective, nonpartisan review of these two 
    foundational aspects of our nuclear deterrent. Quoting 
    from the committee report in 2013, quote: ``The committee 
    believes that peer review and design competitions are 
    critical components of nuclear stockpile stewardship. 
    Because of their importance, the committee believes that 
    an independent assessment is needed to understand the 
    effectiveness of current practices,'' closed quote.
It is clear that without effective peer review and design 
    competition within our nuclear weapons labs, the long-term 
    health and viability of our deterrent is in danger. So we 
    asked the National Academies to review these two issues 
    and give us their assessment. And at the risk of stealing 
    their thunder, our witnesses are reporting that while, 
    quote, ``The state of peer review at the weapons labs is 
    healthy and robust, the state of design competition is 
    not. The NNSA complex must engage in robust design 
    competitions in order to exercise the design and 
    production skills that underpin stockpile stewardship and 
    are necessary to meet evolving threats,'' close quote.
So the report card is mixed, and we need to understand why. 
    More importantly, we need to hear the witnesses' 
    recommendations on what we and the administration should 
    be doing about it. Because at its core, the credibility of 
    our nuclear deterrent rests on the ability of our 
    scientists and engineers to design, build, and field 
    weapons in a timely way. The witnesses state that the 
    nuclear enterprise needs to exercise, on a regular ongoing 
    basis, the full suite of nuclear weapons design, 
    development, engineering, and production capabilities 
    needed to respond to the evolving threats.
This committee has recently taken steps in this direction by 
    creating the Stockpile Responsiveness Program, and the 
    Foreign Nuclear Weapons Prototyping Program. I will be 
    curious to hear what the witnesses think of these efforts 
    and what more should be done.
Coupled with our Project Atom hearing in November, today's 
    hearing should focus our efforts on preparing for the 
    dynamic and highly uncertain nuclear future. We must 
    ensure our nuclear enterprise is ready to meet the future. 
    With the guidance of our witnesses, I am confident we can 
    do just that. Thank you for testifying today and leading 
    the study. We know it takes time to do these things, and 
    we very much appreciate this time and effort.
Our witnesses today are Paul Peercy, co-chair, National 
    Academies Study Committee that conducted this study and 
    Dean Emeritus of the College of Engineering at the 
    University of Wisconsin, Madison; and Dr. Jill Dahlburg, 
    co-chair of the National Academies Study Committee. In her 
    day job, Dr. Dahlburg is with the Naval Research Lab, 
    although she is not here in that capacity today.
With that, let me turn to the ranking member, my friend and 
    colleague from Tennessee, for any statement he would like 
    to make.
[The prepared statement of Mr. Rogers can be found in the 
    Appendix on page 19.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, RANKING 
MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

Mr. Cooper. Thank you, Mr. Chairman. First of all, 
    congratulations on the victory last night. I stayed up 
    until midnight to see that. It was an amazing, amazing 
    game. Second, I would like to ask unanimous consent to 
    insert my opening statement for the record, as well as the 
    testimony of Dr. Garwin and Dr. Schwitters. Unfortunately, 
    they were not able to be here today, but----
Mr. Rogers. Without objection.
[The information referred to can be found in the Appendix 
    beginning on page 37.]
Mr. Cooper. Thank you. Thank you, Mr. Chairman. I look forward 
    to the testimony of the witnesses. These are extremely 
    important questions, and I hope that we can receive the 
    wisdom of the panelists today and do the right thing for 
    the country. Thank you, Mr. Chairman.
[The prepared statement of Mr. Cooper can be found in the 
    Appendix on page 21.]
Mr. Rogers. I thank the gentleman and the witnesses' joint 
    statement will be entered, without objection, into the 
    record.
Mr. Rogers. I would also like to enter into the record the 
    full report of the National Academy Study Committee. 
    Without objection, that will be submitted as well.<dagger>
The Summary from the report is included in the Appendix. The full report 
    can be found at http://www.nap.edu/read/21806/chapter/1.
[The information referred to can be found in the Appendix on 
    page 45.]
Mr. Rogers. We have copies of the report for each of the 
    members and have a few available for others as well.
We will now ask our witnesses to make 5-minute opening 
    statements summarizing their statement. Dr. Peercy, we 
    will start with you. You are recognized for 5 minutes.

STATEMENT OF DR. PAUL S. PEERCY, CO-CHAIR, COMMITTEE ON PEER REVIEW AND 
DESIGN COMPETITION RELATED TO NUCLEAR WEAPONS, NATIONAL ACADEMIES OF 
SCIENCES

Dr. Peercy. Well, thank you, Mr. Chairman. And Mr. Chairman, 
    Ranking Member Cooper, and members of the subcommittee, 
    thank you for the opportunity to discuss the results of 
    our National Academies report, Peer Review and Design 
    Competition in the NNSA National Security Laboratories. My 
    co-chair, Dr. Jill Dahlburg, and I have prepared this 
    joint statement, and I want to ask Jill to please chime in 
    at any time during my comments.
Our report was released on October 15, and it is a product of 
    a very strong committee whose members have extensive 
    experience and excellent credentials in this area. The 
    statement of the task given to the National Academies for 
    the study was specified as noted in the fiscal year 2013 
    National Defense Authorization Act [NDAA]. It charged our 
    committee with assessing the quality and effectiveness of 
    design competition. The charge specified particular 
    dimensions of these assessments, which were carefully 
    addressed in our study and report. The study was supported 
    by the National Nuclear Security Administration which went 
    out of its way to provide the committee with full 
    information relevant to these tasks.
Let me begin with the bottom line, which Chairman Rogers has 
    already noted. The state of peer review at the DOE 
    [Department of Energy] weapons lab is healthy and robust, 
    but the state of design competition is not.
The NNSA complex must engage in robust design competition to 
    exercise design and production skills that underpin the 
    stockpile stewardship, and are necessary to meet evolving 
    threats.
Recent competitive design studies, such as the reliable 
    replacement warhead, RRW, were useful design and modeling 
    exercises, but were not true design competitions because 
    they did not result in the creation of an engineering 
    prototype, and the latter step is necessary to provide 
    essential feedback on the viability and practicality of a 
    design.
Therefore, the committee recommended that to exercise a full 
    set of design skills necessary for an effective nuclear 
    deterrent, the NNSA should develop and conduct the first 
    of what the committee envisions as a series of design 
    competitions that integrate the full, end-to-end process 
    from novel design conception, through engineering, 
    building, and non-nuclear testing of a prototype.
The process should exercise a full range of skills in the 
    complex needed to produce a new weapon, but this should be 
    done with the clear understanding that this prototype 
    would be a nuclear device, not a warhead, and that the 
    prototype would not enter the stockpile.
Maintaining nuclear weapon design skills through design 
    competitions is necessary for our nuclear deterrent 
    workforce to be fully capable of designing and building 
    weapons to meet evolving threats, understanding the status 
    and direction of foreign nuclear weapons programs, and 
    determining the best and most cost-effective approaches to 
    resolving problems that arise during stockpile weapon 
    surveillance and life extension programs.
It is important to emphasize that the scientists and engineers 
    who designed and built the weapons currently in the 
    stockpile have either retired, or soon will retire and 
    these design-and-build competitions are essential for 
    training the next generations of weapons designers for 
    transferring the knowledge from the current generations to 
    future generations, and for maintaining production skills 
    within the NNSA complex.
The committee made other recommendations. I would like to 
    bring three of these to your attention. The first, design 
    competition between independent teams that use different 
    approaches and methods are extremely valuable, especially 
    in a system as complex as a nuclear weapon where we do not 
    have comprehensive understanding of the physics. We also 
    gain increased confidence in the safety and reliability of 
    weapons in the stockpiles when they are assessed by 
    independent teams using different approaches and methods.
These observations led the committee to recommend that Los 
    Alamos and Lawrence Livermore National Laboratories 
    continue to maintain independent design capabilities using 
    different approaches and methods to enable independent 
    peer review of critical technical issues. Sandia National 
    Lab should, likewise, carry out, for high priority issues, 
    competitive designs with independent teams that use 
    different approaches followed by peer review of component 
    subsystems and the full system.
Next, while noting that the peer review process is basically 
    healthy, the committee recommended two minor changes to 
    strengthen the peer review process.
And finally, the committee recommended steps to be followed in 
    future design competitions to avoid the detrimental 
    aspects of the RRW competition.
So, thank you again for the opportunity to testify today. And 
    we remain at your disposal for questions.
[The joint prepared statement of Dr. Peercy and Dr. Dahlburg 
    can be found in the Appendix on page 22.]
Mr. Rogers. And I thank you. Dr. Dahlburg, did you want to 
    summarize your opening statement?
Dr. Dahlburg. I would like to. Thank you very much.
Mr. Rogers. You have an extra 5 minutes.

STATEMENT OF DR. JILL P. DAHLBURG, CO-CHAIR, COMMITTEE ON PEER REVIEW AND 
DESIGN COMPETITION RELATED TO NUCLEAR WEAPONS, NATIONAL ACADEMIES OF 
SCIENCES

Dr. Dahlburg. Okay. So I would like to hark back to what Paul 
    said, which is, it is important to emphasize the 
    scientists and engineers who designed and built the 
    weapons currently in the stockpile have either retired or 
    soon will retire. And what we need to do is make sure that 
    we have a cadre of people who are going to be able to 
    maintain the stockpile into the indefinite future. I think 
    we all agree, as long as we have nuclear weapons, we must 
    be confident in these weapons.
The analogy I often think of is, like, actually cooking. If 
    you want to make something in the kitchen and you are 
    trying to train someone else to make what you are already 
    cooking, you can write down a recipe and they can follow 
    it. If they have never cooked before, the odds are that 
    they are not really going to know how to do it. You can 
    make a video, and they can look at it and then try it from 
    that. But the odds are, they are not going to have quite 
    the same expertise as if they actually come in the kitchen 
    with you, and they learn how to do what you mean by a 
    pinch of salt, or by stirring the flour with the butter. 
    And when you train that way, then you have a group of 
    people who are going to be able to do what is necessary at 
    each stage of replacement warheads, at each stage of 
    designs in the future.
And I want to emphasize that what we are talking about are 
    prototype devices. The design and fabrication should 
    exercise the full range of skills needed to produce a new 
    weapon. Doesn't mean produce one, it just means you have 
    to make sure that these people know every aspect of what 
    they are doing. The design should be able to be certified 
    in a manner consistent with the testing moratorium. This 
    is absolutely mandatory. The prototype nuclear explosive 
    package should be fully integrated with all of the Sandia 
    components. So it is not just the piece that the Livermore 
    and Los Alamos might work on, but across all of the three 
    laboratories.
If they require new Sandia electronic components, the 
    prototypes of these components should also be designed and 
    produced in parallel. And it should be a device, not a 
    warhead. That is, stockpile-to-target type scenarios 
    should be considered by assimilation or testing, but there 
    should be no expectation of actually getting something 
    that looks like it is going into the stockpile.
And this is, I believe, necessary in order to train that next 
    generation workforce, which is every bit as important for 
    a deterrent as the hardware that they are maintaining. 
    That is my statement.
[The joint prepared statement of Dr. Dahlburg and Dr. Peercy 
    can be found in the Appendix on page 22.]
Mr. Rogers. Great, I appreciate the opening statements. We 
    will now open to questions, and I recognize myself for the 
    first set of questions. Dr. Peercy and Dr. Dahlburg, let's 
    start with the good news you bring to us. Your team found 
    that the peer review was strong, healthy within the NNSA 
    labs. So tell us why.
Dr. Peercy. I think it is there because it was built in from 
    the early culture of excellence and a fear of failing, 
    because they did not understand the materials they were 
    using. So they really wanted, they wanted their designs 
    peer reviewed by others before they put them into test.
Mr. Rogers. How was that carried out, that peer review?
Dr. Peercy. So that peer review started out being carried out, 
    primarily, from other scientists in the same laboratory. 
    And then as time passed and especially after Lawrence 
    Livermore National Laboratories failed on its first three 
    tests, the peer review became laboratory-to-laboratory 
    much more. And in the case of Sandia National 
    Laboratories, a branch was built in Lawrence Livermore, 
    and they reviewed the Albuquerque designs, and the 
    Albuquerque team reviewed the Lawrence Livermore designs.
The cultures of those two branches were very different. The 
    culture of the Sandia Lab in Livermore took on the culture 
    of Lawrence Livermore National Lab and the culture of the 
    Sandia Lab in Albuquerque took on the culture of the Los 
    Alamos National Labs. And so that gave purely independent 
    teams designing each other's work, and that is why we 
    recommended that that be maintained going forward, 
    especially for high-consequence items.
And we also recommended that the peer review be codified a bit 
    more. Sandia has written guidelines for what type of peer 
    review when, and we recommended that Los Alamos and 
    Lawrence Livermore create their own short, written 
    guidelines.
Dr. Dahlburg. Yes, and actually short is to the point. We 
    don't want this to turn into another process that becomes 
    a time sink. just something that they can explain. Because 
    right now, they do very informal peer review, peer-to-
    peer, and it goes higher and higher until, finally, the 
    lab director is involved, and there should be something of 
    a checklist that says at the level of uncertainty, this is 
    the kind of peer review that we require.
Mr. Rogers. Good. How do the labs determine what level or 
    types of peer review is required for various programs or 
    projects and is the process formal, informal, ad hoc, or 
    structured?
Dr. Peercy. So the process has been a bit ad hoc at the 
    nuclear design laboratories, Los Alamos and Livermore. 
    Sandia is a much more formal process. And they continue to 
    formalize it. And Sandia also has--although it does not 
    have a complete--a competitor that does a complete end-to-
    end design of the non-nuclear components for a given 
    weapon, if you look across American industry, every one of 
    those different parts are designed and sold. So those are 
    customers for Sandia, and they are also reviewers of 
    Sandia.
Mr. Rogers. Okay. Is the peer review process strong on the 
    non-nuclear side of the business given that there is only 
    one lab, Sandia, that is doing non-nuclear?
Dr. Peercy. Yeah, it is strong, and it was made strong partly 
    because the other--some other institutions, like the 
    Department of Defense, use the same products, some of the 
    same products; but, also, there are competitors in the 
    private sector. And they provide the same products, and so 
    there is competition, not on the complete spectrum from 
    one company, but if you take--if you integrate all of the 
    companies, you have the complete spectrum.
Mr. Rogers. Okay. Let's move over to the less than good news 
    side of the news you brought us. The report says your 
    team, quote, ``is deeply concerned about the state of the 
    design competition in all three laboratories,'' closed 
    quote. It goes on to say that, quote, ``Recent design 
    studies have been good analysis and modeling exercises, 
    but they did not result in the actual engineering and 
    fabrication of components and systems,'' closed quote.
Why is this distinction important, and why should the labs be 
    pursuing actual engineering and prototype fabrication with 
    a clear guidance that the weapon would not actually be 
    produced and deployed?
Dr. Peercy. I think the committee thinks that is important 
    because we do not have complete understanding of the 
    physics of the materials and the processes that go into 
    the weapon. So you look at--you do the best you can with 
    experiments, but you can't reach all of the experimental 
    region you need, and then you do models and simulation 
    based on that. But you find that the two different labs' 
    models give different answers. So the question is, which 
    one is right?
Mr. Rogers. Okay.
Dr. Peercy. And that is why you do this.
Dr. Dahlburg. And there are, in addition to the workforce, we 
    need to understand the status and direction of foreign 
    nuclear weapon programs, and we also need to determine the 
    best and most cost-effective approaches to resolving 
    problems that do arise during surveillance and the life 
    extension programs. So these three are the key reasons.
Mr. Rogers. Okay. The report notes that designing and 
    producing prototypes of new nuclear weapons designs will 
    help address evolving threats. Why does conducting 
    modeling or computer simulations not get the job done 
    here, and why do we need to go all the way to full designs 
    and the building of prototypes? Your microphone.
Dr. Peercy. Sorry. It was very clear for the nuclear 
    components why you need to do the prototyping and testing. 
    And----
Mr. Rogers. Go ahead and explain why.
Dr. Peercy. Pardon?
Mr. Rogers. Go ahead and explain. You said it is obvious.
Dr. Peercy. Oh, okay, because you don't know if the design is 
    going to work. Right off the bat, you don't know first, if 
    it is a viable design that can be built. A lot of the 
    early designs could not be built.
Dr. Dahlburg. And there is more than that. When you are doing 
    a simulation, you are modeling the real world, and there 
    are aspects in that simulation that you made assumptions, 
    in many ways. The numerics themselves are assumptions, and 
    the physics packages are also assumptions. So as you go 
    into more and more extreme states of matter, in large 
    cases, you are guessing because you can't have measured 
    every point that you are simulating. Therefore, you have 
    to do some form of validation with physics. And that is 
    why you need to do actual experimentation.
Mr. Rogers. Okay. Last thing I want to ask is, why does the 
    report stress that a, quote, ``clean slate,'' closed 
    quote, design competition--why is that important?
Dr. Peercy. So the committee thinks that is important because 
    you want to stimulate the nuclear engineering package 
    designers to think about how to design a new weapon, and 
    you want to stimulate the Sandia National Labs, who have a 
    lot of work doing life extension programs to actually 
    think about how they would build the supporting 
    electronics and systems for a different nuclear package.
So right now, the life extension programs only look at 
    existing nuclear packages. And that exercises part of 
    Sandia's expertise, but not all that is needed, and, of 
    course, no new nuclear packages are being designed. So Los 
    Alamos and Lawrence Livermore need that exercise.
Mr. Rogers. If that clean-slate competition were pursued, does 
    the administration 3+2 nuclear stockpile strategy exercise 
    the full range of skills and design competition your study 
    recommends?
Dr. Peercy. We didn't hear much about the 3+2, but from what 
    we heard about the 3+2, it does not exercise the full 
    range. Because the 3+2 basically takes existing nuclear 
    packages, or, at least, the footprint of those, and works 
    around those.
Mr. Rogers. Okay. With that, I yield to the ranking member for 
    any questions he may have.
Mr. Cooper. Thank you, Mr. Chairman. I would like to explore 
    first the degree of unanimity behind the report; first, of 
    your committee members.
Dr. Peercy. So all of the committee members agree with that 
    report.
Mr. Cooper. So no dissenting views? No----
Dr. Peercy. There was no minority views.
Mr. Cooper. How about among the reviewers?
Dr. Peercy. Pardon?
Mr. Cooper. How about among the reviewers?
Dr. Peercy. Well, the reviewers had a lot of suggested 
    improvements, which we appreciate. But the reviewers, some 
    of the reviewers did not fully support the conclusions of 
    the report. I think that's a fair statement.
Dr. Dahlburg. Yes. But in the end, I think we accommodated all 
    of the reviewer comments in the document that you are 
    holding.
Mr. Cooper. Are we allowed to see the reviewer comments?
Mr. Weidman. No, they are held quiet within the Academy, by 
    the Academy's guidelines.
Mr. Cooper. So is it fair to say that this is supported by the 
    National Academies of Science, Engineering, and Medicine?
Dr. Dahlburg. Yes. Absolutely.
Mr. Cooper. So how would you characterize the opinions of 
    scientists who disagree with you, who are members of the 
    Academy?
Dr. Peercy. I don't know. I am--I suspect there are 
    disagreeing opinions. In fact, I know there are two that I 
    just saw this morning that I think you entered into the 
    record. And I think there is a difference of opinion as to 
    whether or not we actually have enough knowledge to design 
    a new weapon if an adversary designs a new weapon and we 
    need to move into a new space that we have not been in 
    without a skilled workforce. And I think there is a big 
    difference of opinion over that. You want to add to that?
Dr. Dahlburg. Yeah, so that is why I started with my analogy 
    about cooking. It is something that we all know. And my 
    reason for being on this committee was that I truly feel 
    that that workforce is an essential pillar of our nuclear 
    deterrent.
So from the perspective of what we wrote, we wrote this in 
    order to make sure that that workforce was going to 
    continue into the next 30 to 50 years.
Mr. Cooper. I think you are touching on the core issue here, 
    which is really a personnel issue.
Dr. Dahlburg. Uh-huh.
Mr. Cooper. Especially the sensitive subject of quality of 
    personnel. Some people who are brilliant refuse to work on 
    nuclear weapons at all, in any form.
Dr. Peercy. That is right.
Mr. Cooper. So we don't have that talent pool. So we have to 
    make do with those who are willing to do this work, this 
    necessary work. So how do we cope with this? You use a 
    cooking analogy. That is important, and I don't want to 
    cut you off, Dr. Peercy. Go ahead if you would like.
Dr. Peercy. I was just going to say that the NNSA is 
    responsible for providing and maintaining the capabilities 
    necessary to sustain a safe, secure, and reliable nuclear 
    weapons stockpile for the Nation and its allies. And using 
    her analogy and other analogies, if you don't know how to 
    build a weapon because you've never built one, and there 
    is--and you can't even write down the recipes for it on 
    paper, how do you know you have got--you have maintained 
    the capabilities to sustain that nuclear weapon stockpile 
    for the Nation and its allies?
Mr. Cooper. Well, let's be very careful how we speak here, 
    because to say there are no recipes, I think would be 
    inaccurate. Dr. Dahlburg was saying, you know, there is 
    knowledge retention. It is a question of actually doing 
    it, the cooking process, the pinch of salt, the stirring 
    in the butter, whatever the analogy is. In medicine, in 
    residency training, each one, treat one, teach one. But 
    here, you are cutting it more finely, because you are 
    talking about a prototype, a nuclear device; not a 
    warhead. But what works is a warhead. So you are stopping 
    short. You want a real-world competition, but then you 
    don't want to actually build anything.
So this is a very tricky dividing line here. How do you make 
    it real without it being real? And one element that was 
    completely missing from the report is the State Department 
    aspect, because you are kind of assuming that other 
    nations won't see this as a threat or a problem when there 
    is no input from that sphere. A further question is, we do 
    a lot of forensic work on other things, and we learn a lot 
    from that. And that is not as a competition right there 
    using--that is more of an Olympics than what you are 
    talking about. You are talking about a national 
    competition, not an international Olympic competition. So 
    there are a lot of moving pieces here, but, fundamentally, 
    these are personnel issues. And personnel issues are very 
    difficult to address.
Dr. Dahlburg. And so, I guess we are both scientists, and 
    applied physicists, and so speaking from our personal 
    experience, if you don't actually compare your work with 
    experimentation, you can delude yourself very easily. Now, 
    I recognize NNSA has done a marvelous job categorizing the 
    large body of knowledge that exists. This is, indeed, the 
    case. It is the workforce, and it is our opinion that if 
    we want to maintain that for 30 years, we better have a 
    little bit more hands-on experience. And so----
Mr. Cooper. But you limit the degree of hands-on experience.
Dr. Dahlburg. Well, for two reasons. One is that we are 
    responding to an NNSA charge. So we spoke within the 
    sphere of the NNSA. So our goal was to make sure that the 
    NNSA complex is entirely addressed. Beyond that, the 
    report did not----
Mr. Cooper. But the goal is a safe, secure, and reliable 
    stockpile. It is not pleasing NNSA bureaucrats.
Dr. Dahlburg. Oh, heavens no. But it is--oh, no, no, no, no, 
    no, that is not what I meant. What I meant is, we were 
    addressing a charge. In a report of this nature, the 
    recommendations can only recommend back to NNSA. So we 
    can't go outside of that and recommend to the State 
    Department or to other agencies.
Mr. Cooper. Would the recommendations have been different if 
    you had been able to recommend to other agencies, if the 
    leash had been----
Dr. Peercy. We probably would have taken this further. There 
    was discussion among the committee about flight tests. And 
    we did not recommend flight tests for three reasons. One 
    reason was we wanted to keep it within the current budget. 
    We didn't want to see a big--a large expense that has to 
    be in place. Second reason is that we wanted to make sure 
    we didn't send the wrong signal as to why we were doing 
    this program, and flight--to an adversary, flight test 
    might do that. But the third reason is, flight tests are 
    in the purview of the Department of Defense [DOD], and not 
    the Department of Energy. And we were charged within the 
    NNSA purview.
Mr. Cooper. And you don't fear that subcritical testing would 
    have any of those negative implications?
Dr. Peercy. No, I don't fear the subcritical testing would 
    have those, as long as there are no nuclear emissions.
Mr. Cooper. But you put your own blinders on not wanting to 
    deal with State Department issues, or budget issues, or 
    DOD issues, or----
Dr. Dahlburg. Well, I think that is--we tried to stay true to 
    the charge. And so the charge itself was to actually 
    address the quality of the peer review, the incentives for 
    peer review. We are done with those. The alternate methods 
    for peer review, we addressed that, and then where design 
    competition is, what is the health and status and what is 
    going to happen to design competition. And so that was 
    what the report was about. If you would like to charge us 
    to do another report, the same committee would probably--
    --
Dr. Peercy. Then broaden it. We would be happy to do that.
Mr. Cooper. The challenge in life is to get at the truth. No 
    one can ever achieve it completely. But we are trying to--
    --
Dr. Dahlburg. Of course.
Mr. Cooper [continuing]. Model it. And it is very difficult--
    --
Dr. Dahlburg. Of course.
Mr. Cooper [continuing]. Because there are a lot of moving 
    parts here. But I have overstayed my welcome. I will let 
    the chairman move on. I know Dr. Fleming is here.
Mr. Rogers. The Chair now recognizes the gentleman from 
    Louisiana, Dr. Fleming, for 5 minutes.
Dr. Fleming. Thank you, and thank you to our panel team. Just 
    so I can understand some of the statements that you make 
    is kind of filled with jargon, and kind of vague 
    references. So I want to try to understand. What we have 
    is a stockpile of nuclear weapons, which, for the most 
    part, were built many years ago. The people who built 
    them, for the most part, probably have retired or died by 
    now. And what I think you are saying is, beyond other 
    things, you want to create a whole other generation of 
    people who are capable of keeping up the stockpile, 
    overhauling them when necessary, and maybe even some day 
    replacing them, if necessary.
We are already talking about the modernization of weapons. I 
    remember when I first came to Congress in 2009, getting a 
    lecture on the fact that we were still using what was 
    equivalent to television tube technology in some of our 
    nuclear weapons. Obviously, something--I mean, you 
    wouldn't--probably wouldn't find a television repairman 
    today, much less one who could actually fix a TV like 
    that.
So I get all of that. That makes a lot of sense. But when you 
    said that you have to test it to validate it, and it makes 
    a lot of sense, how far do you take that? Do you actually 
    do some type of near-nuclear reaction, or simulated 
    reaction, or how far do you get along the line to actually 
    validate the accuracy of your studies?
Dr. Peercy. So that is a very good question because you can do 
    a lot of tests on the components and the subsystems, and 
    then if you want to test the full system, you would take 
    out the warhead. You take out the nuclear package, and put 
    in a dummy package that behaves like the nuclear package 
    but does not have any radioactive material.
Dr. Fleming. Right.
Dr. Peercy. Okay. So that will test the full system.
Dr. Fleming. Right.
Dr. Peercy. And you hopefully can test without any nuclear 
    explosions, the nuclear package independently.
Dr. Fleming. So you understand that nuclear trigger and, 
    obviously, the response of plutonium, or whatever that you 
    have in there. So you go all the way up to that point with 
    the various interacting systems which you have to 
    modernize going forward.
Dr. Dahlburg. And also the complex itself. So I will use a 
    completely different build, so that I don't get in any 
    trouble. Say you are building a space flight instrument. 
    Okay? And so you have this instrument and you are going to 
    have to get it to technology ready--TRL [technology 
    readiness level] level 9, and it is going to go in a 
    satellite. In order to do that, you have to design it; 
    then you have to make sure that you can procure the parts. 
    You have to work with someone who might build a camera; 
    have to understand the electronics, and so on. And in 
    order to do all of this, you have to reach into different 
    places of the space flight hardware community.
Dr. Fleming. Uh-huh.
Dr. Dahlburg. Similarly, with the NNSA, there are many 
    different places that someone who is designing this 
    instrument is going to need to go. And if you don't go as 
    far as a design, you won't be testing that aspect. Do I 
    know the telephone numbers? Can I actually call somebody 
    at the plant and see if they can build this thing? So it 
    is that part of the testing that we are talking about.
Dr. Fleming. Yeah, so it sounds like to me that you wouldn't 
    even be coming close to violating any sort of test bans or 
    anything like that because you are not really using 
    directly nuclear material. You are using all of the 
    devices up to that point?
Dr. Peercy. That is correct.
Dr. Fleming. So that is important. So the National Nuclear 
    Security Administration's labs are not doing the weapons 
    designs needed for the eventuality to modernize nuclear 
    weapons arsenal. So my question is this: The report states 
    that your study group is deeply concerned about the state 
    of design competition at all three laboratories. Would you 
    please elaborate on this concern? What specifically 
    concerns you about this? I know you have touched on it 
    some, but maybe you can encapsulate that.
Dr. Peercy. So, I think the concern about the design 
    competition was that we have not really had a design 
    competition for the full weapon since 1992. Right. There 
    have been some modeling and simulations, but that doesn't 
    tell you if they are going to work. And then when you look 
    at the non-nuclear parts of the weapon, and Jill touched 
    on this, look at how fast the electronics changes, how 
    fast communication changes. I mean, you are not going to 
    be able to buy the components in those weapons that are in 
    there today. You are going to have to design whole new 
    ones. You may not find an industry out there that is 
    building those. Then you have got to build them in-house. 
    And you have got to know what you need, and you have got 
    to have the experts to do it.
Dr. Fleming. Okay. And so the advantage of prototyping is you 
    may know all of the systems work perfectly, but you don't 
    know if they all work perfectly together. Would that be a 
    fair----
Dr. Peercy. That is correct.
Dr. Fleming. Okay. Okay. Well, I think that answers my 
    questions. Thank you.
Mr. Rogers. I thank the gentleman. We have just been called 
    for votes. But I wanted to just close with one question 
    first, before I recognize the ranking member for any 
    closing questions.
How did your recommendation for design competition align with 
    the programs this committee has created through 
    legislation in recent years? Specifically, with the 
    Stockpile Responsiveness Program created by section 3112 
    of the fiscal year 2016 NDAA?
Dr. Peercy. I think it is very well-aligned. I think the two 
    are quite well-aligned. I think your legislation goes 
    further. It goes with the flight tests, but other than 
    that, they are the same.
Mr. Rogers. Would you recommend any modifications to our 
    legislation?
Dr. Peercy. I don't have any. No, I think it is very good.
Mr. Rogers. Great. All right. Does the ranking member have any 
    more questions?
Mr. Cooper. Do the heads of Los Alamos or Sandia or Lawrence 
    Livermore have the authority today, when they evaluate 
    personnel, to test them and see how good they are at 
    solving problems, including design problems?
Dr. Peercy. I would assume so. Yeah.
Mr. Cooper. So are we really talking about anything new here, 
    except an extramural way of formally having a process of 
    competition, because in competition, some people win, some 
    people lose.
Dr. Peercy. I think the thing that we are talking about is, 
    when you do a design and you don't understand the physics, 
    you don't know if what you have designed will work. And 
    that's the bottom line.
Mr. Cooper. But we have competency testing for physicists, and 
    some are better than others.
Dr. Peercy. That is certainly true.
Mr. Cooper. And, presumably, lab directors pay and reward 
    those who do a better job.
Dr. Dahlburg. Sure, but----
Mr. Cooper. And they test them with real-world circumstances. 
    They are doing testing today. They are not sitting on 
    their hands.
Dr. Dahlburg. No, it is true. But that is why we have--I mean, 
    as you know, we have experimental science because even the 
    best physicists in the world can be surprised by----
Mr. Cooper. But they are testing today, different things.
Dr. Peercy. They are testing the capability of given a problem 
    in which you actually can figure out the physics, you can 
    solve that problem. Now, if I give you a problem which you 
    can't solve, you can't solve it. And that is what we are 
    talking about.
Mr. Cooper. Well, you have confused me, but not being a 
    physicist, I am somewhat handicapped, but I will turn that 
    over to the chairman.
Mr. Rogers. Someone who is really handicapped there. Listen, 
    thank you all very much. You have been very helpful. We 
    appreciate your participation. For other members who 
    couldn't be here to ask some questions, we will submit to 
    you in writing, and then ask that you respond to those in 
    a timely manner if you could. With that, this hearing is 
    adjourned.
[Whereupon, at 4:10 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            January 12, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 12, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



    

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 12, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
      
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 12, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. Your group's report says that some ``recent design 
studies have been good analysis and modeling exercises, but they did 
not result in the actual engineering and fabrication of components and 
systems.'' Why is this distinction important--why should the labs be 
pursuing actual engineering and prototype fabrication (with the clear 
guidance that the weapon would not actually be produced and deployed)?
    Dr. Peercy and Dr. Dahlburg. Analysis and modeling alone, no matter 
how carefully and expertly performed, can only be an approximation to 
reality, and the validity is limited by our assumptions and by gaps in 
our knowledge of physics at the extreme scales of nuclear weapons 
science. The Advanced Simulation and Computing (ASC) Program has 
improved understanding of weapons physics and has enabled the 
performance of unique basic science experiments. The data generated are 
useful in peer reviews and for providing feedback to nuclear explosive 
package (NEP) designers. However, ASC alone does not exercise the 
complete set of skills needed for actual design and engineering of an 
NEP. I fully concur with our committee's assessment of the future, 
wherein maintaining the full range of nuclear weapon design skills at 
the NEP laboratories--as well as production skills within the NNSA 
complex--is essential, to achieve three objectives: 1) Maintaining a 
credible nuclear deterrent workforce that is capable of designing and 
building weapons to meet evolving threats; 2) Understanding the status 
and direction of foreign nuclear weapon programs and thus strengthening 
the nonproliferation regime; and, 3) Determining the best and most 
cost-effective approaches to resolving problems that arise during 
stockpile weapons surveillance and Life-Extension Programs (LEPs).
    REF: Report pages 25, 48, 49.
    Mr. Rogers. In carrying out the Stockpile Responsiveness Program 
created by section 3112 of the FY2016 NDAA, should the program 
specifically look at new designs and creative solutions, or should it 
adhere solely to existing weapon designs and techniques? Is this the 
program to pursue the ``clean slate'' designs your report recommends?
    Dr. Peercy and Dr. Dahlburg. While our study did not examine the 
Stockpile Responsiveness Program per se, the recommendations in our 
report suggest that such a program should explore the full spectrum of 
technical creativity and innovation that would be consistent with a 
true blank slate design competition that includes engineering and 
building a prototype; the report specifies that prototype design and 
production should exercise the full range of skills in the NNSA complex 
needed to produce a new weapon. However, it is important at the same 
time to keep in mind that the series of design competitions that the 
report recommends--which include designing, engineering, building, and 
non-nuclear testing of a prototype, with the non-nuclear components 
integrated into the design and fabrication of the prototype--are also 
envisioned by the committee to be of modest cost and managed so as to 
impact neither the cost of nor the schedule for delivering Life 
Extension Programs (LEPs) or the 3+2 program plan.
    REF: Report pages 48, 49.
    Mr. Rogers. Regarding your study's recommendation for full and 
robust design competitions, can you elaborate on how they should be 
conducted? How often do you recommend such competitions be conducted, 
what would they entail, how many people would be involved, and how much 
would they cost? Do you envision this effort would require significant 
additional funding, or could it be accomplished through a repurposing 
of existing research and development programs? Do you think design 
competitions would detract from or complement other weapons programs, 
like life extension programs and infrastructure modernization?
    Dr. Peercy and Dr. Dahlburg. Roughly speaking, the committee 
imagines a design competition as involving a few dozen laboratory staff 
members, with a larger number in the first year of each competition, 
plus some prototype development and experiments up to and including 
hydrodynamic tests. Such design competitions should be initiated 
periodically (perhaps every five years) to allow learning from mistakes 
and for the continuous development of judgment and skills of the 
nuclear weapons enterprise workforce. Regarding impact to other 
programs, our committee's consensus view is that the laboratory staff 
activities that would take place during the alternative design 
competitions would be focused applications of science and engineering 
skills that should happen anyway under the laboratories' science 
campaign and engineering campaign, so that the incremental cost of the 
competitions would be modest, while the benefit to the nation would be 
immense.
    REF: Report pages 48, 50.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Could the NNSA labs do more to leverage other entities 
for peer review, such as the JASONs group, the Atomic Weapons 
Establishment in the United Kingdom, or cleared groups of university or 
industry experts? Would this lead to gains in effectiveness or 
efficiency?
    Dr. Peercy and Dr. Dahlburg. First, our study committee observed 
that all three of the nuclear weapons labs currently recognize the need 
for and thus exercise the relevant multiple types of review, including: 
external peer review, involving persons actively engaged in equivalent 
work outside the lab who review a lab's work in an particular area; 
internal peer review, involving persons from the same lab actively 
engaged in equivalent work (but not in the work being reviewed), who 
review the lab's work in the given area; subject-matter reviews, 
involving internal and external subject matter experts, who review a 
lab's execution of, or capabilities in, particular areas of science and 
engineering; and, technical reviews of programs or projects, involving 
internal and external experts, such as this question addresses, who may 
not have as full a range of expertise as the people performing the 
original work but who provide technical scrutiny and checking of 
selected aspects of the work. Then, on the topic of the nuclear 
weapons-related systems and science reviews that the labs currently 
participate in during a typical year, the committee developed the 
following semi-quantitative conclusions: 1) Each lab already 
participates in some 800 nuclear weapons systems and/or weapons 
science-related peer reviews in a given year; 2) About half of those 
reviews are internal and the other half involve some experts from other 
NNSA labs and/or from outside the nuclear weapons complex; and, 3) 
Substantial staff time and resources are involved in organizing, 
preparing for, conducting, and responding to these already ongoing 
reviews. Hence, we concluded that in the main, these processes are 
already healthy and robust, and accordingly our report's 
recommendations for improvement are modest, i.e., that LLNL and LANL 
should ensure short written guidance for a graded approach to peer 
review, and SNL should strengthen and broaden its use of outside 
experts on its peer review teams.
    REF: Report pages 11, 26, 42, 44.
    Mr. Cooper. The report notes that ``Recommendation 4 [the 
recommendation to build prototypes based on new designs] might be seen 
by some critics as promoting an aggressive posture that would put the 
United States in a position to manufacture new nuclear weapons quickly 
and thus fuel a new global nuclear arms race.'' Can you elaborate on 
these risks?
    Dr. Peercy and Dr. Dahlburg. To avoid the fundamental risk of 
losing a core capability that could be essential for responding to 
evolving national security threats, our committee realized that the 
NNSA complex needs a means of exercising, on a regular and ongoing 
basis, the full suite of nuclear weapons design, development, and 
engineering capabilities through true design competitions. To clarify 
what we envision these competitions to encompass, in order to minimize 
the possibility of our report being misunderstood, we explicitly noted 
that a prototype developed in a design competition should be a 
``nuclear device,'' not a warhead. Implementation of our Recommendation 
4 would help develop and maintain the most important of national 
nuclear security assets--a competent, focused workforce with 
demonstrated skills and judgment--and would instill confidence by all 
stakeholders (including adversaries) in the ability of this workforce 
to maintain the nuclear deterrent.
    REF: Report pages 5, 6, 49.
    Mr. Cooper. Your report stresses that a ``clean slate'' design 
competition is important. Would this respond to specific military 
requirements? Would it help sustain the current arsenal, or be geared 
toward developing a new arsenal? How often do you recommend such 
efforts be conducted, what would they entail, and how much would they 
cost? How would you ensure that this effort does not detract from other 
priorities such as life extension programs and infrastructure 
modernization, or from the mission of understanding foreign nuclear 
weapons designs? Are there any risks of using a clean slate approach to 
new nuclear weapons designs and building prototypes?
    Dr. Peercy and Dr. Dahlburg. Our report did not propose linking 
these design competitions to specific military requirements. However, 
we noted that the design should be such that the consensus of the 
design community would be that the design could be certified in a 
manner consistent with the nuclear testing moratorium--that is, it 
should be close enough to a vetted design to permit that consensus. 
Once hands-on experience of the NEP labs' science and engineering 
personnel in nuclear weapons design or testing would be lost, it could 
seriously compromise the nation's defensive posture and would be 
difficult to reestablish. The committee unanimously judged that a blank 
slate approach to exercising the full range of skills in the NNSA 
complex needed to produce a new weapon should significantly help to 
ameliorate this immense risk. Please note that the other questions 
raised here are addressed in my responses to Questions #2 and #3 above.
    REF: Report pages 47, 49.
    Mr. Cooper. What other skills are not exercised through life 
extension programs? And should those be exercised as well?
    Dr. Peercy and Dr. Dahlburg. Life Extension Programs (LEPs) for the 
warheads in the enduring stockpile systems are planned far in advance, 
and extend over the next several decades. In an LEP, components that 
are known to suffer from deterioration or obsolescence within the time 
frame considered in the LEP are replaced; other components that may 
degrade more slowly with time or fail abruptly after a time longer than 
that examined may or may not be replaced. As a result, the ``aging 
clock'' of these latter components continues to tick. In some LEPs, 
components may need to be changed to improve the safety and security of 
the warhead. Assessment of the performance of changed components is a 
significant challenge, especially because the skills associated with 
designing and developing nuclear explosive packages--and, in the 
process, strengthening understanding of the linkages between the design 
and performance--have not been thoroughly exercised in the nuclear 
weapons complex for more than 20 years. From the perspective of a long-
term view, the nation must have in place the capability to anticipate 
and respond to potential new threats the country could face in the 
future. To attempt this with a future workforce without validated 
experience in weapon design and development would be very risky. 
Accordingly, reliably validated workforce experience should be 
cultivated and routinely exercised, in complement with and also in 
support of LEPs.
    REF: Report pages 40, 41.
    Mr. Cooper. The report notes that engineering and producing 
prototypes of new nuclear weapons designs will help address evolving 
threats. What are these threats and how would building new prototypes 
help address them?
    Dr. Peercy and Dr. Dahlburg. Perhaps even in the later years of the 
Cold War, the nuclear threat landscape appeared more static, and the 
United States stabilized and reduced its stockpile. After the cessation 
of nuclear explosion testing, the United States and its allies put 
their main efforts into maintaining the existing stockpile. Today, as 
foreign stockpiles and their doctrines for use are modernizing, several 
countries are contemplating the development of nuclear capabilities, 
and terrorism is spreading around the world, the nuclear threat 
landscape consequently is again evolving. NNSA, entrusted with the 
responsibility of ensuring unimpeachable confidence in the nation's 
nuclear warheads through its nuclear complex--which consists of the 
three nuclear weapons labs, the test site, and the production plants--
requires for proper preparedness a focused science and engineering 
enterprise of high quality and technical staff of high competence and 
good judgment. The functions of peer review and design competition 
contribute essentially to these attributes, and accordingly both 
functions should be exercised routinely.
    REF: Report pages 40, 41.
    Mr. Cooper. Are there other means, such as advanced computer 
simulation, that could help understand new designs?
    Dr. Peercy and Dr. Dahlburg. Advanced computer simulations would be 
essential to every step of the design competitions we recommend. 
However, as noted in response to Question #1, analysis and modeling 
alone, no matter how carefully and expertly performed, can only be an 
approximation to reality, and the validity is limited by our 
assumptions and by gaps in our knowledge of physics at the extreme 
scales of nuclear weapons science.
    Mr. Cooper. Are there any risks to the quality of peer review done 
between Los Alamos National Laboratory and Lawrence Livermore National 
Laboratory if the members of the boards of both labs are identical? 
Might a same board provide and require the same incentives or promote 
the same culture, that could limit the maximum effectiveness of peer 
review, that might not otherwise be true of other independent peer 
reviews? What measures are in place to mitigate such risks?
    Dr. Peercy and Dr. Dahlburg. The report alludes to this concern in 
the first full paragraph on p. 28, which reads as follows:
    ``With many staff and managers moving from one laboratory to 
another today, and with continued encouragement from DOE/NNSA and 
others for the two NEP laboratories to cooperate--including sharing 
codes and analysis practices--some observers have raised the concern 
that the laboratories' independence may be compromised by moving toward 
more commonality. The laboratory directors should monitor the 
composition of peer review panels to avoid this possibility.''
    Our committee believes that as long as each lab director is 
independently attentive and vigilant about this issue, such a 
possibility will be avoided.
    Mr. Cooper. Did any members of the NAS committee that wrote this 
report have ongoing contracts with either of the NNSA nuclear design 
laboratories?
    Dr. Peercy and Dr. Dahlburg. I understand that that this sort of 
question is one that is faced by nearly all Academies studies. How does 
one attract the most knowledgeable experts on a particular subject to 
serve on the study committee and yet ensure that the committee's 
deliberations are not influenced by particular matters that give rise 
to conflicts of interest? The Academies have developed an elaborate 
vetting process used in forming committees, to balance any biases and 
ensure that study members will not benefit financially from potential 
committee activities or recommendations. The National Academies vetting 
process was fully exercised for our study. Moreover, the report of our 
14-member committee is a consensus product; all members agreed with the 
entire document, which was also reviewed by an independent set of nine 
outside experts (listed in the report). Because it successfully went 
through that external review, the report is an official product of the 
National Academies of Sciences, Engineering, and Medicine, and not of 
the study committee members.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. How urgent is the issue of expert nuclear scientists 
and engineers, who know how to design and build these nuclear devices, 
retiring and leaving the industry? Will these competitive design 
programs mitigate these critical losses?
    Dr. Peercy and Dr. Dahlburg. The number of nuclear explosion 
package (NEP) laboratories' science and engineering personnel with 
hands-on experience in nuclear weapons design and nuclear explosion 
testing continues to decrease and--unless changes are made--this number 
will reach zero in the next decade or so. Once NEP hands-on experience 
would be lost, it could limit the nation's strategic options, and it 
would be difficult to reestablish. Accordingly, the issue is very 
urgent. Although it was considered too expensive for every design 
competition to result in the production of a prototype during the Cold 
War, those competitions that did reach the prototyping stage provided 
the feedback that designers needed to stay at the cutting edge. Hence, 
today as well, design competitions, and the subsequent testing of 
components, subsystems, and systems (within the limits of national 
policy and agreements) are critical to developing the next generation 
NEP designers with expertise that goes beyond analysis and modeling. It 
is the committee's strong consensus view that design competitions as 
described in our report would exercise the full set of NEP design 
skills necessary for an effective nuclear deterrent.
    REF: Report pages 5, 47, 48.

                                  <all>
</pre></body></html>
